No. 20-1375
In the

Supreme Court of the United States
KRISTINA BOX, COMMISSIONER, INDIANA
DEPARTMENT OF HEALTH, et al.,
Petitioners,
v.
PLANNED PARENTHOOD
OF INDIANA AND KENTUCKY, INC.,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

BRIEF FOR AMICI CURIAE, EIGHTY-EIGHT
WOMEN WHO UNDERWENT ABORTIONS
AS MINORS AND SUFFERED HARM,
IN SUPPORT OF PETITIONERS
A llan E. Parker, Jr.
The Justice Foundation
8023 Vantage Drive, Suite 1275
San Antonio, Texas 78230
(210) 614-7157
Mary J. Browning
Mary J. Browning, LLC
214 Cherry Street
Jefferson City, Missouri 65101
(573) 893-4523

Thomas Brejcha
Counsel of Record
Joan M. Mannix
Thomas More Society
309 West Washington Street,
Suite 1250
Chicago, Illinois 60606
(312) 782-1680
tbrejcha@thomasmoresociety.org

Counsel for Amici Curiae
304155

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 5
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Parental Notification Provides Protection
For Children Pressured Into Abortion
By Others Whose Interests Conflict With
Those Of The Child, As Well As Protection
For Those Children Who Are Abused,
Raped Or Trafficked. . . . . . . . . . . . . . . . . . . . . . . . 6
B. Parental Noti f ication Fur thers The
Parent’s And The Child’s Interests In
Obtaining Appropriate Medical Care
For The Child . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
C. Because Children Are Physiologically
Incapable Of Adult Decision-making,
Notification Affords An Opportunity For
Discussion With Parents Who Hold Their
Children’s Best Interests Paramount . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF CITED AUTHORITIES
Page
CASES:
Bellotti v. Baird,
443 U.S. 622 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Gonzales v. Carhart,
550 U.S. 124 (2007) . . . . . . . . . . . . . . . . . . . . . . . . .  7, 10
Graham v. Florida,
560 U.S. 48 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Planned Parenthood
of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992) . . . . . . . . . . . . . . . . . . . . . . . . .  7, 10
Roper v. Simmons,
543 U.S. 551 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Troxel v. Granville,
530 U.S. 57 (2000) . . . . . . . . . . . . . . . . . . . . . . . . .  10, 11
STATUTES AND OTHER AUTHORITIES:
A f f idav it s of A m ic i who rep or t ed bei ng
pressured into their abortions by persons
who were not their parents, https://w w w.
d r opbox .com /sh /6 g uv u mgd whv 2bqk /
AAAX6dWCWPthabW9a2t-JTyga?dl=0 . . . . . . . 2, 8
Affidavits of additional Amici detailing harms
they su f fered as a resu lt of abor tions
performed when they were minors, https://
w w w.d ropbox.com /sh / 21w z r jt see2ad3 0/
AAD-btx-xqCXZlgjA0bmfm-Ka?dl=0 . . . . . . . . . . . 1-2

iii
Cited Authorities
Page
Affidavits of Lisa S., Rochelle B., Nona E.,
D r. D i a n ne H. a nd Don na J., ht tp s: //
w w w.dropbox.com /sh /9pdkabde6huqkq j/
AACdQvIOGweQB6DKRYo5_PR1a?dl=0 . . . . . . . . .1
B . M aj o r, e t a l ., A b o r t i o n a s S t i g m a :
Cognitive and Emotional Implications of
Concealment, 77 Journal of Personality and
Social Psychology 735-745 (1999)  . . . . . . . . . . . . . . . 10
C. Hartley, et al., The Neuroscience of Adolescent
Deci si o n-Makin g, 5 Cu r rent Opi n ions
In Behavioral Sciences, 108-115 (2015) . . . . . . . . 12, 13
D. Bick, et al., Maternity Care for Trafficked
Women: Survivor Experiences and Clinicians’
Perspectives in th e United Kin gd o m’s
National Health Service, PLoS ONE 12(11):
e0187856, https://journals.plos.org/plosone/
ar ticle?id=10.1371/journal.pone.0187856
(last visited 5/1/2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Ind. Code § 16-34-2-4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
K. Sajadi-Emazarova, Abortion Complications,
National Center For Biotechnology Information
(last updated 11/18/2020), available at https://
www.ncbi.nlm.nih.gov/books/NBK430793/ . . . . . . . . 9
L. Ralph, et al., The Role of Parents and Partners
in Minor’s Decisions to Have an Abortion and
Anticipated Coping After an Abortion, 54 Journal
Of Adolescent Health, 430-431 (2013) . . . . . . . . . . . . . 8

1
INTERESTS OF AMICI CURIAE1
This brief is filed on behalf of amici curiae Lisa S.,
Rochelle B., Nona E., Dr. Dianne H., Donna J., Lisa W.,
Joan S., Mary Anne S., Helen, Charlene H., Bonnie L.,
D.L., Paula P., Heather S., Nancy, Heather R., Victoria,
D.R., Naomi K., L.H., Holly, P.R., Christine W., G.N.,
Jenny, Lucinda F., Simone T., Winnifred B., M., Z.R.,
Angela W., Donna, Virginia, Kim B., Phyllis, Marcia,
J.O., Lisa, Susan, Christin R., A.D., Deann O., Christine
P., Erika, C.S., Stephanie A., Teresa, Selena, B.L., Tammy
L., Laurie, Shelly R., Karen, Michele B., Theresa C.,
Annette, P.S.J.M., Tammy J., K.J., Vickie E., Renee,
Kristal T., Patricia L., M.H., C.H., Janet, Monica, Beverly
S., S.D., Stephanie L., Christi D., Stacey, J.W., Marsha H.,
Betsy D., Julie E., Adrienne, Dion R., Becki, T.W., Linda
H., D.C., S.B., Sharon F., Linda J., K.D., Melinda Z., B.H.
and Lyssa K.
As discussed in greater detail infra, amici are eightyeight (88) women who underwent abortions as minors who
subsequently experienced a litany of human suffering
arising from their abortions, including profound physical,
mental and emotional harms. 2 Many of them were
1. Pursuant to Rule 37.6, counsel for amici affirm that no
counsel for a party authored this brief in whole or in part and that
no person other than amici or their counsel made any monetary
contributions intended to fund the preparation or submission of
this brief. Pursuant to Rule 37.2(a), the parties were timely notified
that amici intended to file this brief and have consented to its filing.
2. The affidavits of Lisa S., Rochelle B., Nona E., Dr. Dianne
H. and Donna J. can be found here: https://www.dropbox.com/
sh/9pdkabde6huqkqj/AACdQvIOGweQB6DKRYo5_PR1a?dl=0 The
affidavits of all other amici can be found here: https://www.dropbox.

2
pressured into the abortions by people in their lives as
to whom there is no basis for believing they were acting
in the best interests of amici, rather than serving their
own conflicting self- interests. People who influenced
amici’s abortion decisions included, among others, their
boyfriends, their boyfriends’ parents, their rapists, and
abortion clinic workers. 3
Amici include Lisa S., who was sixteen when she
became pregnant. Her boyfriend’s mother, who was also a
teacher at Lisa S.’s school, took her to Planned Parenthood.
There, a “counselor” told Lisa S. that her parents did not
need to know about her pregnancy, encouraged her to
abort and discouraged her from putting the baby up for
adoption. Lisa S.’s boyfriend and boyfriend’s mother
agreed with the Planned Parenthood “counselor” that
she should lie to her parents. Lisa S. resisted getting an
abortion, but the boyfriend and his mother pressured her.
The boyfriend’s mother even pulled Lisa S. out of class one
day, cried and told Lisa S. “[the boyfriend’s mother] was
worried about what it would do to her son’s football career.”
Lisa S. gave in to the pressure from her boyfriend and the
boyfriend’s mother and went forward with the abortion.
She regrets her decision and supports parental
notification of abortion. If such a requirement had been
com/sh/21wzrjtsee2ad30/AAD-btx-xqCXZlgjA0bmfm-Ka?dl=0 The
affidavits detail amici’s individual experiences of the harms caused
by abortion.

3. The affidavits of amici who reported being pressured
into their abortions by persons who were not their parents can
be found here: https://www.dropbox.com/sh/6guvumgdwhv2bqk/
AAAX6dWCWPthabW9a2t-JTyga?dl=0

3
in place at the time of her pregnancy, there would not
have been a question of whether she would have told her
parents and it would have been harder for her boyfriend
and boyfriend’s mother to “railroad” and “manipulate”
her into doing something she wasn’t comfortable with and
which she regrets.
Rochelle B., another of the amici on whose behalf this
brief is filed, underwent an abortion at age 17 without her
parents’ knowledge or consent. Although she acknowledged
that if her parents knew of her pregnancy she might still
have had an abortion, if they had known, she would have
had the benefit of their advice and perspectives to help
her in her decision-making. If they been notified before
her abortion, things might have turned out differently in
her life. As it is, she underwent her first abortion at age
17 and a second at age 19, but was subsequently unable to
successfully carry a baby to term.
Amicus, Nona E., became pregnant at age 15 when
her boyfriend coerced her into sexual intercourse. Nona
E.’s mother and sister took her for the abortion, but
Nona E.’s mother was not allowed into the “counseling”
session that preceded her surgical abortion. Because of
that, her mother was not present when Nona E. was told
that, due to her small stature, she might not be able to
have children after the abortion. As Nona E. was being
given a sedative, her mother tried to enter the room,
Nona E. believes to try to stop the abortion, but Nona
E.’s mother was told she had to leave. Among numerous
other negative repercussions arising from her abortion,
because of damage caused during the abortion, Nona E.
suffered five (5) miscarriages, three (3) of which involved
ectopic pregnancies. Her last pregnancy ended in a tubal

4
rupture that almost killed her. She has lived with, inter
alia, a life-time of regret and depression and attempted
on multiple occasions to take her own life. Nona E. was
never able to have children, to her great sorrow today.
Nona E. supports parental notification as a safeguard
against decisions by adolescents who are subject to peer
pressure from friends and boyfriends and who fail to
understand the life-long implications of abortion. She
believes if her mother had not been excluded from the
session at which it was disclosed that infertility might be
a consequence of Nona E.’s abortion, the abortion would
not have proceeded.
When amicus, Dr. Dianne H., was 16, she became
pregnant. After discussing the situation with a friend
their age, but without discussing the pregnancy with
either her parents or her boyfriend’s parents, she and
her boyfriend decided to abort the baby. At the abortion
clinic, she was told the baby was “a blob of tissue.” At
the abortion clinic, there was neither discussion of other
options nor an explanation of what the abortion procedure
“really entailed.”
Dr. Dianne H.’s decision to abort haunts her to this
day. She has experienced, among other problems, anxiety,
depression and the symptoms of Post-Traumatic Stress
Disorder (“PTSD”). She supports parental notification
because, based on her training and qualifications,
including her status as a licensed professional mental
health counselor and certified clinical trauma professional,
she knows that at 16 she lacked sufficient cognitive
development to make the decision to abort her baby.

5
Donna J., another of the amici submitting this brief,
became pregnant when she was 16 and decided to keep
the baby. However, because she was a ward of the state
of Tennessee, her choice was disregarded. The state sent
her for a visit with her mother, who had lost custody of
her years prior due to the mother’s lack of fitness. On the
trip, her mother took her for an abortion, without any
notification to Donna J.’s father, to whom the mother had
previously lost custody. Donna J. subsequently suffered
depression, multiple suicide attempts, and drug and
alcohol abuse. She supports parental notification because,
if the state had notified her “fit” parent (her father), or
even the parents of the father of the baby, there would
have been a different outcome for Donna J., her baby and
the father of the baby.
SUMMARY OF ARGUMENT
Amici submit this brief to urge the Court to grant
the petition for certiorari. In support thereof, they seek
to present the Court with their personal experiences and
other information establishing the significant benefits
the enjoined statutory parental notification provision
provides to unemancipated minors for whom the court has
authorized an abortion via a “judicial bypass.” At issue
is the validity of a statute requiring parental notification
before an abortion, when a court has already authorized
an abortion for an unemancipated minor without parental
consent (either because the minor has been found mature
enough to make the abortion decision or the court has
made a determination that an abortion is in her best
interests.) See Ind. Code §16-34-2-4. Under the terms of
the statute, notification is excused if the court has made
a finding that such notice would contravene the minor’s

6
best interests. Id. While preserving the minor’s decision
to undergo an abortion, the notification requirement
furthers important rights and interests of the minor and
the minor’s parents.
Given the exclusion from the notification requirement
of parents as to whom the court determines such
notification would not be in the minor’s best interests,
presumptively the response to notification will come
from parents acting in the best interests of their child.
Notification allows parents to ensure that their daughters’
decisions to undergo abortion have been made freely and
without the pressure of boyfriends, boyfriends’ parents
and others motivated by their own interests rather than
the interests of the pregnant minor. It will also allow
parents to protect their daughters when the pregnancy
is the result of rape, sex trafficking or other criminal
wrongdoing. Further, notification will provide parents
with the opportunity to help their daughters select
competent medical providers and provide the parents with
critical medical information regarding their daughters in
the event of subsequent physical complications or mental
or emotional impacts.
ARGUMENT
A. Parental Notification Provides Protection For
Children Pressured Into Abortion By Others Whose
Interests Conflict With Those Of The Child, As
Well As Protection For Those Children Who Are
Abused, Raped Or Trafficked.
In situations in which parents support a child’s abortion
decision, the requirement at issue in this case, parental

7
notification of a court’s authorization of an abortion via a
bypass procedure, would not impact a minor’s abortion
decision (the court already having approved a decision that
the parents would have approved of in any event). However,
such notification would insure parents are aware their
daughters are sexually active, allow parents to take steps
to ensure that their daughters have access to relevant
information and permit parents to determine that their
daughters’ sexual activity is consensual and not the result
of rape or trafficking.4 Additionally, notification would
provide important information to parents regarding their
daughters’ medical histories, particularly in the event
of any subsequent physical complications or mental or
emotional impacts, which this Court has acknowledged are
common as a result of abortion. See Planned Parenthood
of Southeastern Pennsylvania v. Casey, 505 U.S. 833,
882 (1992) (acknowledging “devastating psychological
consequences”); Gonzales v. Carhart, 550 U.S. 124, 159
(2007) (acknowledging “severe depression and loss of
self-esteem”).
With respect to other parents, in addition to the
foregoing benefits, the notification provides them the
opportunity to discuss an already-approved abortion
determination with their daughters. As discussed infra,
4. There is evidence that a significant proportion of women who
are trafficked become pregnant as a result of the trafficking. One
study conducted in the U.K. indicated that 29% of the trafficked
women who participated in the study reported one or more
pregnancies as a result. D. Bick, et al., Maternity Care for Trafficked
Women: Survivor Experiences and Clinicians’ Perspectives
in the United Kingdom’s National Health Service, PLoS ONE
12(11): e0187856, available here: https://journals.plos.org/plosone/
article?id=10.1371/journal.pone.0187856 (last visited 5/1/2021).

8
adolescents are physiologically incapable of adult decisionmaking, and are particularly susceptible to peer pressure,
irrespective of how mature they may be. Notification allows
parents to confirm that their daughters have not been
pressured into making abortion-decisions by boyfriends,
boyfriends’ parents, friends, and others who their daughters
may trust, without an understanding or recognition that
the interests of those individuals are conflicting with
those of the minor, or any evaluation of the ability of those
individuals to make a mature decision.5 Numerous amici
experienced pressure from, among others, boyfriends or
the fathers of their babies, boyfriends’ parents, friends
and abortion clinic workers. Two amici were pressured
into getting an abortion by the men who raped them, and
another was coerced by the father of the baby who was
abusive. Another was pressured into getting an abortion
by a nurse at the clinic that prescribed both birth control
pills and an antibiotic for her. See https://www.dropbox.
com/sh/6guvumgdwhv2bqk/AAAX6dWCWPthabW9a2tJTyga?dl=0

5. “A significantly larger percentage of minors than adults
indicated that they had sought abortion care mostly because
someone else wanted them to (10% vs. 3%; p < .05). When asked
specifically who had pressured them into seeking an abortion,
most indicated their mother (57%), followed by male partners
(32%), ‘everybody’ (7%), or another family member (e.g., father,
aunt, grandmother) (6%) (data not shown). Seven percent of minors
were classified as having felt pushed into the abortion; this figure
was significantly higher among minors than adult women (7% vs.
2%; p < .05).” [Citations to Table 1 of article omitted.] L. Ralph,
et al., The Role of Parents and Partners in Minor’s Decisions to
Have an Abortion and Anticipated Coping After an Abortion, 54
Journal Of Adolescent Health, 430-431 (2013).

9
Moreover, parental notification allows parents an
opportunity to participate in ensuring that their abortions
are, at the very least, performed by competent doctors.
See Bellotti v. Baird, 443 U.S. 622, fn. 1 (1979).
B. Parental Notification Furthers The Parent’s And
The Child’s Interests In Obtaining Appropriate
Medical Care For The Child.
Recognized complications of abortions include “minor”
(according to researchers who had not experienced
them) complications, “such as pain, bleeding, infection,
and post-anesthesia complications” as well as “major”
complications, such as “uterine atony and subsequent
hemorrhage, uterine perforation, injuries to adjacent
organs (bladder or bowels), cervical laceration, failed
abortion, septic abortion, and disseminated intravascular
coagulation (DIC).” See K. Sajadi-Emazarova, Abortion
Complications, National Center For Biotechnology
Information (last updated 11/18/2020), available at https://
www.ncbi.nlm.nih.gov/books/NBK430793/.6
The personal experience of amici confirm the wide
range of physical and mental suffering women experience
as a consequence of abortions performed when they were
minors. Almost universally, amici experience regret, a
sense of loss and guilt. Amici have also suffered from,
6. Citing: I. Carlsson, et al., Complications Related to
Induced Abortion: a Combined Retrospective and Longitudinal
Follow-up Study, BMC Women’s Health, 18(1):158 (Sept. 25, 2018);
C. Shannon, et al., Infection After Medical Abortion: a Review of
the Literature, Contraception, 70(3):183-90 (Sept. 2004); M. Paul,
et al., Early Surgical Abortion: Efficacy and Safety, Am J Obstet
Gynecol., 187(2):407-11 (Aug. 2002).

10
among other consequences, anxiety, depression, suicidal
ideation and suicide attempts, low self-esteem, feelings
of self-loathing and worthlessness, nightmares, blocked
memories, flashbacks, alcohol and drug addiction, fertility
problems and relationship and intimacy problems.
This Court has recognized some of the devastating
consequences of abortion upon women. See Planned
Parenthood of Southeastern Pennsylvania v. Casey, 505
U.S. 833, 882 (1992); Gonzales v. Carhart, 550 U.S. 124,
159 (2007).
Moreover, there is evidence that the very concealment
of the fact of an abortion may have significant negative
psychological consequences. One study “found a positive
association between feeling stigmatized by abortion and
feeling a need to keep it a secret,” “a positive relationship
between secrecy and attempts to suppress thoughts of
the abortion,” with “[i]ncreased attempts at thought
suppression ... in turn, positively associated with greater
reports of intrusive thoughts of the abortion.” B. Major,
et al., Abortion as Stigma: Cognitive and Emotional
Implications of Concealment, 77 Journal of Personality
and Social Psychology, 735-745, 741-742 (1999). The
study determined, “Both suppression and intrusion were
positively associated with postabortion psychological
distress, controlling for preabortion distress and for
chronic predispositions to experience positive affect and
negative affect.” Id. at 742.
This Court has acknowledged, “[T]he interest of
parents in the care, custody, and control of their children—
is perhaps the oldest of the fundamental liberty interests
recognized by this Court.” Troxel v. Granville, 530 U.S.
57, 65 (2000). [Citation omitted.]. The Court reaffirmed,

11
“‘It is cardinal with us that the custody, care and nurture
of the child reside first in the parents, whose primary
function and freedom include preparation for obligations
the state can neither supply nor hinder.’” Id. at 65-66.
[Citation omitted.] If ostensibly-protected constitutional
parental rights to the “custody, care and nurture of
the child” are to have any meaning, this Court should
affirm that loving parents, who hold the best interests
of their daughters paramount, should be permitted the
opportunity to discuss abortion with their daughters, and
should not be deprived of their rights to care and nurture
their children simply because parental reaction upon
learning of a teen pregnancy may not be an immediate
trip to the nearest Planned Parenthood for an abortion.
C. Because Children Are Physiologically Incapable
Of Adult Decision-making, Notification Affords
An Opportunity For Discussion With Parents Who
Hold Their Children’s Best Interests Paramount.
Additionally, the notification requirement will allow
parents to discuss with their daughters their decisions,
already approved by the Court, to abort. This is
particularly appropriate and valuable in view of teens’
inability to engage in adult decision-making, no matter
how mature they may be.
Doctors inform parents that, no matter how smart
their teenagers may be, “Good judgment isn’t something
they can excel in, at least not yet.” See https://www.
stanfordchildrens.org/en/topic/default?id=understandingthe-teen-brain-1-3051 (last visited 5/1/21). In layman’s
terms, this is because, “The rational part of a teen’s
brain isn’t fully developed and won’t be until age 25 or

12
so. In fact, recent research has found that adult and teen
brains work differently. Adults think with the prefrontal
cortex, the brain’s rational part. This is the part of the
brain that responds to situations with good judgment and
an awareness of long-term consequences. Teens process
information with the amygdala. This is the emotional
part.” Id
Scientific research confirms this to be the case.
Scientists have endeavored to understand how and why
adolescent 7 decision-making is different from adult
decision-making, with studies indicating adolescent
decision-making is “unique.” C. Hartley, et al., The
Neuroscience of Adolescent Decision-Making, 5 Current
Opinions In Behavioral Sciences, 108-115, 112-113 (2015).
Adolescent decision-making is different in a variety of
ways from adult-decision-making. Id. Its uniqueness
“can be partially attributed to normative maturational
changes in brain function.” It is also dramatically subject
to peer attitudes.8 Id. The ability of adolescents to
engage in “future-oriented cognitive processes such [as]
planning, or anticipating the consequences of actions
continues to increase throughout adolescence.” Id.
at 112. Quite simply, adolescents are physiologically

7. The referenced study defines “adolescence” as “begin[ning]
around the time of physical puberty and end[ing] with the
assumption of adult-like levels of autonomy.”
8. “[A] dolescent attunement to the social environment
is perhaps even more subtle than originally thought — merely
being looked at by a peer is sufficient to induce uniquely high
levels of physiological arousal in adolescents and modulation of
corticostriatal valuation systems.” Id. at 112.

13
incapable of “adult-like” decision-making ability. See
id. at 113.
This Court has itself recognized, “As compared
to adults, juveniles have a “‘lack of maturity and an
underdeveloped sense of responsibility’”; they “are more
vulnerable or susceptible to negative influences and
outside pressures, including peer pressure”; and their
characters are “not as well formed.” Graham v. Florida,
560 U.S. 48, 68 (2010), citing Roper v. Simmons, 543 U.S.
551, 569-570 (2005). This Court has also acknowledged,
“[D]evelopments in psychology and brain science continue
to show fundamental differences between juvenile and
adult minds. For example, parts of the brain involved
in behavior control continue to mature through late
adolescence.” Graham, 560 U.S. at 68. [Citations to briefs
of amici omitted.]
Given the fundamental differences between adult
and adolescent decision-making, pregnant adolescents
can only benefit from discussions with their parents
regarding abortion decisions previously approved by the
court. This is particularly appropriate and valuable in
view of the minors’ physiological inability to engage in
adult decision-making, no matter how mature a court may
determine they are.

14
CONCLUSION
For the foregoing reasons, amici urge the Court to
grant the petition for certiorari.
Respectfully Submitted,
Thomas Brejcha
Counsel of Record
Joan M. Mannix
Thomas More Society
309 West Washington Street,
Suite 1250
Chicago, Illinois 60606
(312) 782-1680
tbrejcha@thomasmoresociety.org
A llan E. Parker, Jr.
The Justice Foundation
8023 Vantage Drive, Suite 1275
San Antonio, Texas 78230
(210) 614-7157
Mary J. Browning
Mary J. Browning, LLC
214 Cherry Street
Jefferson City, Missouri 65101
(573) 893-4523
Counsel for Amici Curiae
Dated: May 3, 2021

